                  Department of Veterans Affairs
                  Office of Inspector General


                    Office of Healthcare Inspections

Report No. 13-02314-39




    Combined Assessment Program 

              Review of the 

     Carl Vinson VA Medical Center 

             Dublin, Georgia 





January 7, 2014

                         Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                                          CAP Review of the Carl Vinson VA Medical Center, Dublin, GA



                                              Glossary
                 CAP            Combined Assessment Program
                 CLC            community living center
                 CS             controlled substances
                 CSC            Construction Safety Committee
                 EHR            electronic health record
                 EOC            environment of care
                 facility       Carl Vinson VA Medical Center
                 FY             fiscal year
                 HPC            hospice and palliative care
                 IC             infection control
                 IPEC           Inpatient Evaluation Center
                 MH RRTP        Mental Health Residential Rehabilitation Treatment
                                Program
                 NA             not applicable
                 NC             noncompliant
                 OIG            Office of Inspector General
                 OSHA           Occupational Safety and Health Administration
                 PCCT           Palliative Care Consult Team
                 QM             quality management
                 RME            reusable medical equipment
                 SPS            Sterile Processing Service
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                                     CAP Review of the Carl Vinson VA Medical Center, Dublin, GA



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives and Scope ................................................................................................              1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1


Results and Recommendations ................................................................................                       3

  QM ..........................................................................................................................    3

  EOC ........................................................................................................................     6

  Medication Management – CS Inspections .............................................................                             8

  Coordination of Care – HPC ...................................................................................                  10

  Pressure Ulcer Prevention and Management .........................................................                              12

  Nurse Staffing .........................................................................................................        15

  Construction Safety.................................................................................................            16

  MH RRTP ...............................................................................................................         18


Appendixes
  A. Facility Profile ....................................................................................................        20

  B. VHA Patient Satisfaction Survey and Hospital Outcome of Care Measures ......                                                 21

  C. VISN Director Comments ..................................................................................                    22

  D. Facility Director Comments ...............................................................................                   23

  E. OIG Contact and Staff Acknowledgments .........................................................                              36

  F. Report Distribution .............................................................................................            37

  G. Endnotes ...........................................................................................................         38





VA OIG Office of Healthcare Inspections
                                          CAP Review of the Carl Vinson VA Medical Center, Dublin, GA



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
September 9, 2013.

Review Results: The review covered eight activities.

Recommendations: We made recommendations in all eight of the following
activities:

Quality Management: Include the facility Director as a member of the senior-level
committee responsible for quality management and performance improvement. Ensure
that senior leaders routinely discuss the facility’s Inpatient Evaluation Center data and
that the discussions are documented in the minutes of a senior-level committee. Revise
the local observation bed policy to include that each observation patient must have a
focused goal for the period of observation and that each admission must have a clinical
condition that is appropriate for observation. Ensure the peer review, observation bed,
cardiopulmonary resuscitation, electronic health record quality, and blood usage review
processes meet applicable requirements. Require that representatives from Surgery,
Medicine, and Anesthesia Services attend Blood Usage Committee meetings. Ensure
Medical Executive Committee and Quality Leadership Team minutes reflect discussion
of improvement opportunities and track actions to completion for Inpatient Evaluation
Center data and the copy and paste function. Conduct a full evaluation of quality
management processes to determine whether improvements are needed to ensure a
comprehensive and effective program that monitors all required components.

Environment of Care: Ensure vents in patient care areas are clean. Require reusable
medical equipment standard operating procedures and manufacturers’ instructions to be
consistent.

Medication Management – Controlled Substances Inspections: Ensure controlled
substances inspectors receive annual updates or refresher training. Conduct monthly
inspections of all non-pharmacy areas with controlled substances and pharmacy areas,
and include all required elements in inspections.

Coordination of Care – Hospice and Palliative Care: Ensure all non-hospice and
palliative care clinical staff who provide care to patients at the end of their lives receive
end-of-life training.

Pressure Ulcer Prevention and Management: Establish an interprofessional pressure
ulcer committee that includes a wound care specialist. Analyze pressure ulcer data,
and report it to facility executive leadership. Perform and document a complete skin
assessment on all patients within 24 hours of admission and a patient skin inspection
and risk scale at discharge. Accurately document location, stage, risk scale score, and


VA OIG Office of Healthcare Inspections                                                             i
                                          CAP Review of the Carl Vinson VA Medical Center, Dublin, GA


date pressure ulcer acquired for all patients with pressure ulcers. Consistently perform
and document daily risk scales and daily skin inspections for patients at risk for or with
pressure ulcers. Provide and document pressure ulcer education for patients at risk for
and with pressure ulcers and/or their caregivers. Ensure designated employees receive
training on how to administer the pressure ulcer risk scale, how to conduct a complete
skin assessment, and how to accurately document findings.

Nurse Staffing: Ensure all facility and unit-based expert panels receive the required
training prior to the next annual staffing plan reassessment.

Construction Safety: Conduct and review infection control and tuberculosis risk
assessments prior to construction project initiation. Ensure all members of the
Construction Safety Committee participate in construction site inspections. Require
documentation of site inspections to include the time of the inspection and names of
those who participated. Conduct infection surveillance activities related to construction
projects, and document this in Infection Control Committee minutes.               Ensure
Construction Safety Committee minutes contain documentation of any unsafe
conditions identified in daily inspections. Require that contractors receive Occupational
Safety and Health Administration Construction Safety training prior to project initiation
and that designated employees receive initial and ongoing construction safety training.

Mental Health Residential Rehabilitation Treatment Program: Conduct and document
monthly self-inspections. Perform and document daily bed checks and weekly
contraband inspections.        Ensure written agreements acknowledging resident
responsibility for medication security are in place. Require that the units’ main points of
entry have keyless entry systems. Implement written processes to address behavioral
health and medical emergencies, and ensure employees are aware of the actions to be
taken.

Comments
The Veterans Integrated Service Network and Facility Directors agreed with the
Combined Assessment Program review findings and recommendations and provided
acceptable improvement plans. (See Appendixes C and D, pages 22–35, for the full
text of the Directors’ comments.) We consider recommendations 1, 4, and 26 closed.
We will follow up on the planned actions for the open recommendations until they are
completed.




                                                            JOHN D. DAIGH, JR., M.D. 

                                                           Assistant Inspector General for 

                                                              Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                             ii
                                          CAP Review of the Carl Vinson VA Medical Center, Dublin, GA



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	   Conduct recurring evaluations of selected health care facility operations, focusing
        on patient care quality and the EOC.

   	   Provide crime awareness briefings to increase employee understanding of the
        potential for program fraud and the requirement to refer suspected criminal
        activity to the OIG.

Scope
The scope of the CAP review is limited. Serious issues that come to our attention that
are outside the scope will be considered for further review separate from the CAP
process and may be referred accordingly.

For this review, we examined selected clinical and administrative activities to determine
whether facility performance met requirements related to patient care quality and the
EOC. In performing the review, we inspected selected areas, conversed with managers
and employees, and reviewed clinical and administrative records. The review covered
the following eight activities:

   	   QM

   	   EOC

   	   Medication Management – CS Inspections

   	   Coordination of Care – HPC

   	   Pressure Ulcer Prevention and Management

   	   Nurse Staffing

   	   Construction Safety

   	   MH RRTP

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2012 and FY 2013 through
September 12, 2013, and was done in accordance with OIG standard operating


VA OIG Office of Healthcare Inspections                                                            1
                                          CAP Review of the Carl Vinson VA Medical Center, Dublin, GA


procedures for CAP reviews. We also asked the facility to provide the status on the
recommendations we made in our previous CAP report (Combined Assessment
Program Review of the Carl Vinson VA Medical Center, Dublin, Georgia, Report
No. 10-00045-207, July 26, 2010). We made repeat recommendations in EOC and QM.

During this review, we presented crime awareness briefings for 309 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and
included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
114 responded. We shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.




VA OIG Office of Healthcare Inspections                                                            2
                                                CAP Review of the Carl Vinson VA Medical Center, Dublin, GA



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility complied with selected
requirements within its QM program.1

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The areas marked as NC needed improvement. Any items that did not apply to this
facility are marked NA.

 NC                   Areas Reviewed                                         Findings
  X    There was a senior-level committee/group           The facility Director was not a member of the
       responsible for QM/performance                      senior-level committee.
       improvement, and it included the required
       members.
 X     There was evidence that IPEC data was             Twelve months of Medical Executive Committee
       discussed by senior managers.                     meeting minutes reviewed:
                                                          There was no evidence that IPEC data was
                                                           discussed.
 X     Corrective actions from the protected peer         The facility did not provide documented
       review process were reported to the Peer            evidence of compliance in the timeframe
       Review Committee.                                   needed to fully evaluate this area.
       Focused Professional Practice Evaluations for
       newly hired licensed independent practitioners
       complied with selected requirements.
 X     Local policy for the use of observation beds      The facility’s policy did not include that:
       complied with selected requirements.               Observation patients must have a focused
                                                           goal for the period of observation.
                                                          Each patient admitted must have a clinical
                                                           condition that is appropriate for observation.
 X     Data regarding appropriateness of                  The facility did not provide documented
       observation bed use was gathered, and               evidence of compliance in the timeframe
       conversions to acute admissions were less           needed to fully evaluate this area.
       than 30 percent, or the facility had reassessed
       observation criteria and proper utilization.
       Staff performed continuing stay reviews on at
       least 75 percent of patients in acute beds.
       Appropriate processes were in place to
       prevent incidents of surgical items being
       retained in a patient following surgery.
 X     The cardiopulmonary resuscitation review           The facility did not provide documented
       policy and processes complied with                  evidence of compliance in the timeframe
       requirements for reviews of episodes of care        needed to fully evaluate this area.
       where resuscitation was attempted.




VA OIG Office of Healthcare Inspections                                                                     3
                                                CAP Review of the Carl Vinson VA Medical Center, Dublin, GA


 NC            Areas Reviewed (continued)                                  Findings
  X    There was an EHR quality review committee,       The facility did not provide documented
       and the review process complied with              evidence of compliance in the timeframe
       selected requirements.                            needed to fully evaluate this area.
       The EHR copy and paste function was
       monitored.
       Appropriate quality control processes were in
       place for non-VA care documents, and the
       documents were scanned into EHRs.
 X     Use and review of blood/transfusions             The facility did not provide all documented
       complied with selected requirements.              evidence of compliance in the timeframe
                                                         needed to fully evaluate this area.
                                                       Four quarters of Blood Usage Committee
                                                       meeting attendance rosters reviewed:
                                                        Surgery, Medicine, and Anesthesia Service
                                                         representatives did not attend Blood Usage
                                                         Committee meetings during the last
                                                         4 quarters.
       CLC minimum data set forms were transmitted
       to the data center with the required frequency.
 X     Overall, if significant issues were identified, The facility did not provide all documented
       actions were taken and evaluated for            evidence of compliance in the timeframe needed
       effectiveness.                                  to fully evaluate this area. However, we did
                                                       review 4 quarters of Medical Executive
                                                       Committee and Quality Leadership Team
                                                       meeting minutes:
                                                        Minutes did not reflect discussion of
                                                          improvement opportunities or track actions to
                                                          completion for IPEC data and the copy and
                                                          paste function. This was a repeat finding
                                                          from the previous CAP review.
       There was evidence at the senior leadership
       level that QM, patient safety, and systems
       redesign were integrated.
       Overall, there was evidence that senior
       managers were involved in performance
       improvement over the past 12 months.
 X     Overall, the facility had a comprehensive,       The facility did not provide all documented
       effective QM/performance improvement               evidence of compliance in the timeframe
       program over the past 12 months.                   needed to fully evaluate the program. The
                                                          documents that were provided did not support
                                                          that the facility had a comprehensive and
                                                          effective QM program.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                  4
                                          CAP Review of the Carl Vinson VA Medical Center, Dublin, GA



Recommendations

1. We recommended that the senior-level committee responsible for QM and performance
improvement include the facility Director as a member.

2. We recommended that senior leaders routinely discuss the facility’s IPEC data and ensure
that discussions are documented in the minutes of a senior-level committee.

3. We recommended that the facility Director ensure that the peer review process meets
applicable requirements and is monitored on an ongoing basis and that documented evidence of
compliance be readily available.

4. We recommended that the local observation bed policy be revised to include that each
observation patient must have a focused goal for the period of observation and that each
admission must have a clinical condition that is appropriate for observation.

5. We recommended that the facility Director ensure that the observation bed review process
meets applicable requirements and is monitored on an ongoing basis and that documented
evidence of compliance be readily available.

6. We recommended that the facility Director ensure that the cardiopulmonary resuscitation
review process meets applicable requirements and is monitored on an ongoing basis and that
documented evidence of compliance be readily available.

7. We recommended that the facility Director ensure that the EHR quality review process
meets applicable requirements and is monitored on an ongoing basis and that documented
evidence of compliance be readily available.

8. We recommended that the facility Director ensure that the blood usage review process
meets applicable requirements and is monitored on an ongoing basis and that documented
evidence of compliance be readily available.

9. We recommended that processes be strengthened to ensure that representatives from
Surgery, Medicine, and Anesthesia Services attend Blood Usage Committee meetings.

10. We recommended that processes be strengthened to ensure that Medical Executive
Committee and Quality Leadership Team minutes reflect discussion of improvement
opportunities and track actions taken to completion for IPEC data and the copy and paste
function.

11. We recommended that the facility conduct a full evaluation of QM processes to determine
whether improvements are needed to ensure a comprehensive and effective program that
monitors all required components.




VA OIG Office of Healthcare Inspections                                                            5
                                                CAP Review of the Carl Vinson VA Medical Center, Dublin, GA


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether selected
requirements in the hemodialysis and SPS areas were met.2

We inspected four CLC units, one intensive care unit, one medical/surgical unit, the outpatient
clinic, and SPS. The facility did not have a hemodialysis program. Additionally, we reviewed
relevant documents, conversed with key employees and managers, and reviewed six SPS
employee training and competency files. The table below shows the areas reviewed for this
topic. The areas marked as NC needed improvement. Any items that did not apply to this
facility are marked NA.

 NC           Areas Reviewed for General EOC                                Findings
       EOC Committee minutes reflected sufficient
       detail regarding identified deficiencies,
       corrective actions taken, and tracking of
       corrective actions to closure.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       Fire safety requirements were met.
X      Environmental safety requirements were met.       The vents in all seven patient care areas were
                                                          dusty and dirty.

       Infection prevention requirements were met.

       Medication safety and security requirements
       were met.
       Sensitive patient information was protected,
       and patient privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
            Areas Reviewed for Hemodialysis
 NA    The facility had policy detailing the cleaning
       and disinfection of hemodialysis equipment
       and environmental surfaces and the
       management of infection prevention
       precautions patients.
 NA    Monthly biological water and dialysate testing
       was conducted and included required
       components, and identified problems were
       corrected.



VA OIG Office of Healthcare Inspections                                                                  6
                                                 CAP Review of the Carl Vinson VA Medical Center, Dublin, GA


 NC          Areas Reviewed for Hemodialysis                                  Findings
                          (continued)
 NA    Employees received training on bloodborne
       pathogens.
 NA    Employee hand hygiene monitoring was
       conducted, and any needed corrective actions
       were implemented.
 NA    Selected EOC/infection prevention/safety
       requirements were met.
 NA    The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for SPS/RME
       The facility had policies/procedures/guidelines
       for cleaning, disinfecting, and sterilizing RME.
       The facility used an interdisciplinary approach
       to monitor compliance with established RME
       processes, and RME-related activities were
       reported to an executive-level committee.
NA     The facility had policies/procedures/guidelines
       for immediate use (flash) sterilization and
       monitored it.
       Employees received required RME training
       and competency assessment.
NA     Operating room employees who performed
       immediate use (flash) sterilization received
       training and competency assessment.
 X     RME standard operating procedures were             RME standard operating procedures and
       consistent with manufacturers’ instructions,       manufacturers’ instructions for eight critical and
       procedures were located where reprocessing         semi-critical items reviewed:
       occurs, and sterilization was performed as          Five of the standard operating procedures
       required.                                            and manufacturers’ instructions were not
                                                            consistent. This was a repeat finding from
                                                            the previous CAP review.
       Selected infection prevention/environmental
       safety requirements were met.
       Selected requirements for SPS
       decontamination and sterile storage areas
       were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.

Recommendations

12. We recommended that processes be strengthened to ensure that vents in patient care
areas are clean and that compliance be monitored.

13. We recommended that processes be strengthened to ensure that RME standard operating
procedures and manufacturers’ instructions are consistent.


VA OIG Office of Healthcare Inspections                                                                        7
                                                CAP Review of the Carl Vinson VA Medical Center, Dublin, GA


Medication Management – CS Inspections
The purpose of this review was to determine whether the facility complied with requirements
related to CS security and inspections.3

We reviewed relevant documents and conversed with key employees. We also reviewed the
training files of the CS Coordinator and 10 CS inspectors and inspection documentation from
10 CS areas, the inpatient and outpatient pharmacies, and the emergency drug cache. The
table below shows the areas reviewed for this topic. The areas marked as NC needed
improvement. Any items that did not apply to this facility are marked NA.

 NC                    Areas Reviewed                                       Findings
       Facility policy was consistent with VHA
       requirements.
       VA police conducted annual physical security
       surveys of the pharmacy/pharmacies, and
       any identified deficiencies were corrected.
       Instructions for inspecting automated
       dispensing machines were documented,
       included all required elements, and were
       followed.
       Monthly CS inspection findings summaries
       and quarterly trend reports were provided to
       the facility Director.
       CS Coordinator position description(s) or
       functional statement(s) included duties, and
       CS Coordinator(s) completed required
       certification and were free from conflicts of
       interest.
 X     CS inspectors were appointed in writing,         Appointments, certifications, and training
       completed required certification and training,   records reviewed:
       and were free from conflicts of interest.         CS inspectors did not receive annual updates
                                                           or refresher training.
 X     Non-pharmacy areas with CS were inspected        Documentation and monthly inspection reports
       in accordance with VHA requirements, and         of 10 CS areas inspected January–August 2013
       inspections included all required elements.      reviewed:
                                                         Monthly inspections of all required
                                                           non-pharmacy areas were missed during
                                                           February and March.
                                                         For completed inspections in 4 of the
                                                           10 areas, not all required elements were
                                                           addressed.




VA OIG Office of Healthcare Inspections                                                                  8
                                               CAP Review of the Carl Vinson VA Medical Center, Dublin, GA


 NC           Areas Reviewed (continued)                                 Findings
  X    Pharmacy CS inspections were conducted in      Documentation and monthly inspection reports
       accordance with VHA requirements and           of pharmacy CS inspections
       included all required elements.                January–August 2013 reviewed:
                                                       Monthly inspections of all required pharmacy
                                                         areas were missed during February and
                                                         March.
                                                       For completed inspections, not all required
                                                         elements were addressed.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

14. We recommended that processes be strengthened to ensure that CS inspectors receive
annual updates or refresher training.

15. We recommended that processes be strengthened to ensure that monthly inspections of all
non-pharmacy areas with CS are conducted and include all required elements and that
compliance be monitored.

16. We recommended that processes be strengthened to ensure that monthly inspections of all
pharmacy areas are conducted and include all required elements and that compliance be
monitored.




VA OIG Office of Healthcare Inspections                                                                 9
                                                CAP Review of the Carl Vinson VA Medical Center, Dublin, GA


Coordination of Care – HPC
The purpose of this review was to determine whether the facility complied with selected
requirements related to HPC, including PCCT, consults, and inpatient services.4

We reviewed relevant documents, 20 EHRs of patients who had PCCT consults (including
10 HPC inpatients), and 25 employee training records (10 HPC staff records and 15 non-HPC
staff records), and we conversed with key employees. The table below shows the areas
reviewed for this topic. The area marked as NC needed improvement. Any items that did not
apply to this facility are marked NA.

 NC                     Areas Reviewed                                      Findings
       A PCCT was in place and had the dedicated
       staff required.
       The PCCT actively sought patients
       appropriate for HPC.
       The PCCT offered end-of-life training.
X      HPC staff and selected non-HPC staff had           There was no evidence that three non-HPC
       end-of-life training.                               staff had end-of-life training.
       The facility had a VA liaison with community
       hospice programs.
       The PCCT promoted patient choice of location
       for hospice care.
       The CLC-based hospice program offered
       bereavement services.
       The HPC consult contained the word
       “palliative” or “hospice” in the title.
       HPC consults were submitted through the
       Computerized Patient Record System.
       The PCCT responded to consults within the
       required timeframe and tracked consults that
       had not been acted upon.
       Consult responses were attached to HPC
       consult requests.
       The facility submitted the required electronic
       data for HPC through the VHA Support
       Service Center.
       An interdisciplinary team care plan was
       completed for HPC inpatients within the
       facility’s specified timeframe.
       HPC inpatients were assessed for pain with
       the frequency required by local policy.
       HPC inpatients’ pain was managed according
       to the interventions included in the care plan.
       HPC inpatients were screened for an
       advanced directive upon admission and
       according to local policy.




VA OIG Office of Healthcare Inspections                                                                 10
                                               CAP Review of the Carl Vinson VA Medical Center, Dublin, GA


 NC            Areas Reviewed (continued)                                  Findings
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

17. We recommended that processes be strengthened to ensure that all non-HPC clinical staff
who provide care to patients at the end of their lives receive end-of-life training.




VA OIG Office of Healthcare Inspections                                                                11
                                                 CAP Review of the Carl Vinson VA Medical Center, Dublin, GA


Pressure Ulcer Prevention and Management
The purpose of this review was to determine whether acute care clinicians provided
comprehensive pressure ulcer prevention and management.5

We reviewed relevant documents, 6 EHRs of patients with pressure ulcers (5 patients with
community-acquired pressure ulcers and 1 patient with pressure ulcers at the time of our onsite
visit), and 10 employee training records. Additionally, we inspected one patient room. The table
below shows the areas reviewed for this topic. The areas marked as NC needed improvement.
Any items that did not apply to this facility are marked NA.

 NC                    Areas Reviewed                                        Findings
       The facility had a pressure ulcer prevention
       policy, and it addressed prevention for all
       inpatient areas and for outpatient care.
 X     The facility had an interprofessional pressure    The facility did not have an interprofessional
       ulcer committee, and the membership                pressure ulcer committee.
       included a certified wound care specialist.
 X     Pressure ulcer data was analyzed and             Minutes of Nursing Quality Leadership
       reported to facility executive leadership.       Committee for past 6 months reviewed:
                                                         Pressure ulcer data was not analyzed or
                                                          reported to facility executive leadership.
 X     Complete skin assessments were performed          Three of the six EHRs did not contain
       within 24 hours of acute care admissions.          documentation that staff conducted a
                                                          complete skin assessment within 24 hours of
                                                          admission.
 X     Skin inspections and risk scales were             None of the four applicable EHRs contained
       performed upon transfer, change in condition,      documentation that a skin inspection and risk
       and discharge.                                     scale were performed at discharge.
 X     Staff were generally consistent in                In two of the six EHRs, staff did not
       documenting location, stage, risk scale score,     consistently document the location, stage,
       and date acquired.                                 risk scale score, and/or date acquired.
 X     Required activities were performed for            None of the six EHRs contained consistent
       patients determined to be at risk for pressure     documentation that staff performed daily risk
       ulcers and for patients with pressure ulcers.      scales and/or daily skin inspections.
       Required activities were performed for
       patients determined to not be at risk for
       pressure ulcers.
       For patients at risk for and with pressure
       ulcers, interprofessional treatment plans were
       developed, interventions were recommended,
       and EHR documentation reflected that
       interventions were provided.
 NA    If the patient’s pressure ulcer was not healed
       at discharge, a wound care follow-up plan was
       documented, and the patient was provided
       appropriate dressing supplies.




VA OIG Office of Healthcare Inspections                                                                    12
                                                CAP Review of the Carl Vinson VA Medical Center, Dublin, GA


NC             Areas Reviewed (continued)                                    Findings
X      The facility defined requirements for patient    Facility pressure ulcer patient and caregiver
       and caregiver pressure ulcer education, and      education requirements reviewed:
       education on pressure ulcer prevention and        None of the five applicable EHRs contained
       development was provided to those at risk for      evidence that education was provided.
       and with pressure ulcers and/or their
       caregivers.
X      The facility defined requirements for staff      Facility pressure ulcer staff education
       pressure ulcer education, and acute care staff   requirements reviewed:
       received training on how to administer the        Seven employee training records did not
       pressure ulcer risk scale, conduct the             contain evidence of training on how to
       complete skin assessment, and accurately           administer the pressure ulcer risk scale, how
       document findings.                                 to conduct a complete skin assessment, or
                                                          how to accurately document findings.
       The facility complied with selected fire and
       environmental safety, infection prevention,
       and medication safety and security
       requirements in pressure ulcer patient rooms.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

18. We recommended that the facility establish an interprofessional pressure ulcer committee
with appropriate membership, including a certified wound care specialist.

19. We recommended that the facility analyze pressure ulcer data and report it to facility
executive leadership.

20. We recommended that processes be strengthened to ensure that acute care staff perform
and document a complete skin assessment on all patients within 24 hours of admission and that
compliance be monitored.

21. We recommended that processes be strengthened to ensure that acute care staff perform
and document a patient skin inspection and risk scale at discharge and that compliance be
monitored.

22. We recommended that processes be strengthened to ensure that acute care staff
accurately document location, stage, risk scale score, and date pressure ulcer acquired for all
patients with pressure ulcers and that compliance be monitored.

23. We recommended that processes be strengthened to ensure that acute care staff
consistently perform and document daily risk scales and daily skin inspections for patients at
risk for or with pressure ulcers and that compliance be monitored.

24. We recommended that processes be strengthened to ensure that acute care staff provide
and document pressure ulcer education for patients at risk for and with pressure ulcers and/or
their caregivers and that compliance be monitored.



VA OIG Office of Healthcare Inspections                                                                   13
                                          CAP Review of the Carl Vinson VA Medical Center, Dublin, GA


25. We recommended that processes be strengthened to ensure that designated employees
receive training on how to administer the pressure ulcer risk scale, how to conduct a complete
skin assessment, and how to accurately document findings and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                           14
                                                CAP Review of the Carl Vinson VA Medical Center, Dublin, GA


Nurse Staffing
The purpose of this review was to determine the extent to which the facility implemented the
staffing methodology for nursing personnel and to evaluate nurse staffing on two inpatient units
(acute medical/surgical and long-term care).6

We reviewed relevant documents and 32 training files, and we conversed with key employees.
Additionally, we reviewed the actual nursing hours per patient day for acute medical/surgical
unit 13B/15B and CLC unit 12A for 52 randomly selected days (holidays, weekdays, and
weekend days) between October 1, 2012, and March 31, 2013. The table below shows the
areas reviewed for this topic. The area marked as NC needed improvement. Any items that did
not apply to this facility are marked NA.

 NC                    Areas Reviewed                                       Findings
       The facility completed the required steps to
       develop a nurse staffing methodology by the
       deadline.
       The unit-based expert panels followed the
       required processes and included all required
       members.
       The facility expert panel followed the required
       processes and included all required members.
 X     Members of the expert panels completed the         None of the 12 members of the unit-based
       required training.                                  expert panels had completed the required
                                                           training.
                                                          Eleven of the 21 members of the facility
                                                           expert panel had not completed the required
                                                           training.
       The actual nursing hours per patient day met
       or exceeded the target nursing hours per
       patient day.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

26. We recommended that all members of the facility and unit-based expert panels receive the
required training prior to the next annual staffing plan reassessment.




VA OIG Office of Healthcare Inspections                                                                  15
                                                CAP Review of the Carl Vinson VA Medical Center, Dublin, GA


Construction Safety
The purpose of this review was to determine whether the facility maintained IC and safety
precautions during construction and renovation activities in accordance with applicable
standards.7

We inspected the 13A Renovation for Endoscopy Suite project. Additionally, we reviewed
relevant documents and 16 employee training records, and we conversed with key employees
and managers. The table below shows the areas reviewed for this topic. The areas marked as
NC needed improvement. Any items that did not apply to this facility are marked NA.

 NC                    Areas Reviewed                                       Findings
       There was a multidisciplinary committee to
       oversee IC and safety precautions during
       construction and renovation activities and a
       policy outlining the responsibilities of the
       committee, and the committee included all
       required members.
 X     IC, preconstruction, interim life safety, and   Risk assessments reviewed:
       contractor tuberculosis risk assessments were    The IC risk assessment was not reviewed
       conducted prior to project initiation.             prior to project initiation.
                                                        The tuberculosis risk assessment was not
                                                          conducted prior to project initiation.
 NA    There was documentation of results of
       contractor tuberculosis skin testing and of
       follow-up on any positive results.
       There was a policy addressing Interim Life
       Safety Measures, and required Interim Life
       Safety Measures were documented.
 X     Site inspections were conducted by the          Site inspection documentation for 2 quarters
       required multidisciplinary team members at      reviewed:
       the specified frequency and included all         We did not find documented evidence that all
       required elements.                                 required multidisciplinary team members
                                                          participated in site inspections.
                                                        We did not find documented evidence of the
                                                          time of the inspections.
 X     IC Committee minutes documented infection       IC Committee minutes for past 2 quarters
       surveillance activities associated with the     reviewed:
       project and any interventions.                   There was no documentation of infection
                                                          surveillance activities related to the project.
 X     CSC minutes documented any unsafe               CSC minutes for past 2 quarters reviewed:
       conditions found during inspections and any      There was no documentation of unsafe
       follow-up actions and tracked actions to           conditions in any of the daily inspections.
       completion.




VA OIG Office of Healthcare Inspections                                                                 16
                                             CAP Review of the Carl Vinson VA Medical Center, Dublin, GA


 NC            Areas Reviewed (continued)                                Findings
  X    Contractors and designated VA employees        The facility did not provide documented
       received required training.                     evidence that contractors received OSHA
                                                       Construction Safety training.
                                                     Employee training records reviewed:
                                                      Four employee records did not contain
                                                       evidence of initial VHA or OSHA Construction
                                                       Safety training.
                                                      Five employee records did not contain
                                                       evidence of at least 10 hours of construction
                                                       safety training in the past 2 years.
       Dust control requirements were met.
       Fire and life safety requirements were met.
       Hazardous chemicals requirements were met.
       Storage and security requirements were met.
       The facility complied with any additional
       elements required by VHA or local policy or
       other regulatory standards.

Recommendations

27. We recommended that processes be strengthened to ensure that IC and tuberculosis risk
assessments are conducted and reviewed prior to construction project initiation.

28. We recommended that all required members of the multidisciplinary CSC participate in
construction site inspections and that inspection documentation includes the time of the
inspection and the names of those who participated.

29. We recommended that processes be strengthened to ensure that infection surveillance
activities related to construction projects are conducted and documented in IC minutes.

30. We recommended that processes be strengthened to ensure that CSC minutes contain
documentation of any unsafe conditions identified in daily inspections.

31. We recommended that processes be strengthened to ensure that contractors receive OSHA
Construction Safety training prior to project initiation.

32. We recommended that processes be strengthened to ensure that designated employees
receive initial and ongoing construction safety training and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                              17
                                                CAP Review of the Carl Vinson VA Medical Center, Dublin, GA


MH RRTP
The purpose of this review was to determine whether the facility’s domiciliary, Domiciliary Care
for Homeless Veterans Program, Substance Abuse Residential Rehabilitation Treatment
Program, and Post-Traumatic Stress Disorder Residential Rehabilitation Treatment Program,
complied with selected EOC requirements.8

We reviewed relevant documents, inspected units 8B and 16B, and conversed with key
employees. The table below shows the areas reviewed for this topic. The areas marked as NC
needed improvement. Any items that did not apply to this facility are marked NA.

 NC                    Areas Reviewed                                       Findings
       The residential environment was clean and in
       good repair.
 NA    Appropriate fire extinguishers were available
       near grease producing cooking devices.
       There were policies/procedures that
       addressed safe medication management and
       contraband detection.
 X     Monthly MH RRTP self-inspections were             The facility only began conducting
       conducted, documented, and included all            self-inspections in May 2013.
       required elements; work orders were
       submitted for items needing repair; and any
       identified deficiencies were corrected.
 X     Contraband inspections, staff rounds of all       Daily bed checks and weekly contraband
       public spaces, daily bed checks, and resident      inspections were not consistently
       room inspections for unsecured medications         documented.
       were conducted and documented.
 X     Written agreements acknowledging resident         Written agreements were not in place on the
       responsibility for medication security were in     units.
       place.
 X     The main point(s) of entry had keyless entry      The units’ main points of entry did not have
       and closed circuit television monitoring, and      keyless entry.
       all other doors were locked to the outside and
       alarmed.
       Closed circuit television monitors with
       recording capability were installed in public
       areas but not in treatment areas or private
       spaces, and there was signage alerting
       veterans and visitors that they were being
       recorded.
 X     There was a process for responding to             The facility did not have written processes in
       behavioral health and medical emergencies,         place for responding to behavioral health and
       and staff were able to articulate the              medical emergencies.
       processes.
 NA    In mixed gender units, women veterans’
       rooms were equipped with keyless entry or
       door locks, and bathrooms were equipped
       with door locks.



VA OIG Office of Healthcare Inspections                                                                  18
                                              CAP Review of the Carl Vinson VA Medical Center, Dublin, GA


 NC            Areas Reviewed (continued)                                 Findings
       Medications in resident rooms were secured.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

33. We recommended that processes be strengthened to ensure that monthly MH RRTP
self-inspections are conducted and documented.

34. We recommended that processes be strengthened to ensure that MH RRTP employees
perform and document daily bed checks and weekly contraband inspections and that
compliance be monitored.

35. We recommended that processes be strengthened to ensure that written agreements
acknowledging resident responsibility for medication security are in place.

36. We recommended that the MH RRTP units’ main points of entry have keyless entry
systems.

37. We recommended that the facility implement written processes to address behavioral health
and medical emergencies and that MH RRTP employees are aware of the actions to be taken.




VA OIG Office of Healthcare Inspections                                                               19
                                                CAP Review of the Carl Vinson VA Medical Center, Dublin, GA
                                                                                               Appendix A


        Facility Profile (Dublin/557) FY 2013 through May 2013a
Type of Organization                                                           Secondary
Complexity Level                                                               3-Low complexity
Affiliated/Non-Affiliated                                                      Non-affiliated
Total Medical Care Budget in Millions                                          $204.1
Number (through June 2013) of:
    Unique Patients                                                           30,247
    Outpatient Visits                                                         198,498
    Unique Employeesb                                                         1,163
Type and Number of Operating Beds:
    Hospital                                                                  34
    CLC                                                                       161
    Mental Health                                                             145
Average Daily Census:
    Hospital                                                                  16
    CLC                                                                       139
    Mental Health                                                             88
Number of Community Based Outpatient Clinics                                   5
Location(s)/Station Number(s)                                                  Macon/557GA
                                                                               Albany/557GB
                                                                               Baldwin County/557GC
                                                                               Brunswick/557GE
                                                                               Perry/557HA
VISN Number                                                                    7




a
    All data is for FY 2013 through May 2013 except where noted.
b
    Unique employees involved in direct medical care (cost center 8200).


VA OIG Office of Healthcare Inspections                                                                 20
                                                 CAP Review of the Carl Vinson VA Medical Center, Dublin, GA
                                                                                                Appendix B


                             VHA Patient Satisfaction Survey 

VHA has identified patient satisfaction scores as significant indicators of facility
performance. Patients are surveyed monthly. Table 1 below shows facility, VISN, and
VHA overall inpatient scores for quarters 3–4 of FY 2012 and quarters 1–2 of FY 2013
and overall outpatient satisfaction scores for FY 2012.

Table 1

                     Inpatient Scores                                  Outpatient Scores
                    FY 2012     FY 2013                                    FY 2012
                  Inpatient       Inpatient        Outpatient      Outpatient       Outpatient       Outpatient
                  Score           Score            Score           Score            Score            Score
                  Quarters 3–4    Quarters 1–2     Quarter 1       Quarter 2        Quarter 3        Quarter 4
    Facility      65.7            66.8             50.4            50.4             45.2             50.0
    VISN          65.9            65.2             51.8            51.3             50.6             51.1
    VHA           65.0            65.5             55.0            54.7             54.3             55.0



                         Hospital Outcome of Care Measures 

Hospital Outcome of Care Measures show what happened after patients with certain
conditions received hospital care.c Mortality (or death) rates focus on whether patients
died within 30 days of being hospitalized. Readmission rates focus on whether patients
were hospitalized again within 30 days of their discharge. These rates are based on
people who are 65 and older and are “risk-adjusted” to take into account how sick
patients were when they were initially admitted. Table 2 below shows facility and U.S.
national Hospital Outcome of Care Measure rates for patients discharged between
July 1, 2008, and June 30, 2011.d

Table 2

                                   Mortality                                     Readmission
                Heart Attack      Heart           Pneumonia       Heart Attack     Heart           Pneumonia
                                  Failure                                          Failure
    Facility    16.0              12.0            12.8            **               22.5            20.9
    U.S.
    National    15.5              11.6            12.0            19.7             24.7            18.5
     ** The number of cases is too small (fewer than 25) to reliably tell how well the facility is performing.




c
  A heart attack occurs when blood flow to a section of the heart muscle becomes blocked, and the blood supply is
slowed or stopped. If the blood flow is not restored timely, the heart muscle becomes damaged. Heart failure is a
weakening of the heart’s pumping power. Pneumonia is a serious lung infection that fills the lungs with mucus and
causes difficulty breathing, fever, cough, and fatigue.
d
  Rates were calculated from Medicare data and do not include data on people in Medicare Advantage Plans (such as
health maintenance or preferred provider organizations) or people who do not have Medicare.


VA OIG Office of Healthcare Inspections                                                                           21
                                          CAP Review of the Carl Vinson VA Medical Center, Dublin, GA
                                                                                         Appendix C
                              VISN Director Comments



               Department of
               Veterans Affairs                                     Memorandum


       Date:           December 5, 2013

       From:           Director, VA Southeast Network (10N7)

       Subject:        CAP Review of the Carl Vinson VA Medical Center,
                       Dublin, GA

       To:             Director, Atlanta Office of Healthcare Inspections (54AT)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       I concur with the recommendations and approve the action plans as
       outlined by the Carl Vinson VA Medical Center.




VA OIG Office of Healthcare Inspections                                                           22
                                          CAP Review of the Carl Vinson VA Medical Center, Dublin, GA
                                                                                         Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                                     Memorandum


       Date:           December 5, 2013

       From:           Director, Carl Vinson VA Medical Center (557/00)

       Subject:        CAP Review of the Carl Vinson VA Medical Center,
                       Dublin, GA

       To:             Director, VA Southeast Network (10N7)

       1. I concur with the recommendations in the Combined Assessment
       Program Review of the Carl Vinson VA Medical Center.

       2. Thank you for this opportunity to review the draft report. Attached are
       the facility actions taken as a result of these findings.

       3. If you have additional questions or need further information, please
       contact me at (478) 272-1210, ext. 2901.




VA OIG Office of Healthcare Inspections                                                           23
                                          CAP Review of the Carl Vinson VA Medical Center, Dublin, GA


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that the senior-level committee responsible for
QM and performance improvement include the facility Director as a member.

Concur

Target date for completion: Completed

Facility response: The senior level committee for CVVAMC is the Executive Leadership
Team (ELT) which was established by Medical Center Memorandum No. 00-09, dated
August 8, 2013. The chairperson for this committee is the Medical Center Director.
Members of this committee also include the Patient Safety Manager as well as the Chief
of Quality Management. The ELT meets quarterly and has oversight over all QM and
performance improvement initiatives.

Recommendation 2. We recommended that senior leaders routinely discuss the
facility’s IPEC data and ensure that discussions are documented in the minutes of a
senior-level committee.

Concur

Target date for completion: December 31, 2013

Facility response: CVVAMC leadership discussed IPEC data during the November 2013
CPR and Infection Control Committees. IPEC data was discussed and documented in
the Medical Executive Committee (MEC) during the November meeting and will be
discussed at least quarterly in ELT, beginning with the December 2013 meeting.

Recommendation 3. We recommended that the facility Director ensure that the peer
review process meets applicable requirements and is monitored on an ongoing basis
and that documented evidence of compliance be readily available.

Concur

Target date for completion: December 17, 2013

Facility response: The Risk Manager has developed a checklist used to ensure that all
elements of the peer review process are completed in accordance with VA Policy. This
checklist is completed for every peer review and monitored by the Risk Manager on an
ongoing basis. Also, the Peer Review Committee (PRC) minute’s format has been
revised to ensure compliance with established guidelines reflecting all the required


VA OIG Office of Healthcare Inspections                                                           24
                                          CAP Review of the Carl Vinson VA Medical Center, Dublin, GA


elements. The new format will be used at the next Peer Review Committee scheduled
for December 5, 2013. The PRC will report to the MEC quarterly for discussion of
findings, trends, and actions taken. To ensure evidence of compliance is readily
available, the Risk Manager will maintain all files in a secure, centralized location.

Recommendation 4. We recommended that the local observation bed policy be
revised to include that each observation patient must have a focused goal for the period
of observation and that each admission must have a clinical condition that is appropriate
for observation.

Concur

Target date for completion: Completed

Facility response:      Observation Bed Policy was revised and published on
November 22, 2013. The new policy includes requirements that each observation
patient must have a focused goal for the period of observation and that each admission
must have a clinical condition that is appropriate for observation.

Recommendation 5. We recommended that the facility Director ensure that the
observation bed review process meets applicable requirements and is monitored on an
ongoing basis and that documented evidence of compliance be readily available.

Concur

Target date for completion: December 9, 2013

Facility response: Medical Center Memorandum (MCM) 11-113 (Observation Care
Beds) was revised to include added responsibilities for UM to include daily contact with
providers and reviewing cases in daily clinical meetings. A representative from UM will
submit tracking, trending and analysis of the data on a quarterly basis to the Quality
Leadership Team (QLT). The report will include number and conversion rate of
observations to admissions and percentage of compliance with admission criteria.

Recommendation 6. We recommended that the facility Director ensure that the
cardiopulmonary resuscitation review process meets applicable requirements and is
monitored on an ongoing basis and that documented evidence of compliance be readily
available.

Concur

Target date for completion: January 31, 2014

Facility response: During the October 2013 quarterly meeting, the CPR committee
revised the committee minute template to include additional information required per
VHA Directive 2008-063. Each CPR event was reviewed in detail with trends and
opportunities for improvement identified. Actions taken will be tracked through closure
in the CPR Committee minutes. Data was reported in Medical Executive Committee


VA OIG Office of Healthcare Inspections                                                           25
                                          CAP Review of the Carl Vinson VA Medical Center, Dublin, GA


(MEC) during the November 2013 meeting. To ensure documented evidence of
compliance is readily available, the CPR Committee Chairperson will maintain all
documentation. The next quarterly CPR Committee is scheduled for January 2014.

Recommendation 7. We recommended that the facility Director ensure that the EHR
quality review process meets applicable requirements and is monitored on an ongoing
basis and that documented evidence of compliance be readily available.

Concur

Target date for completion: Completed

Facility response: The MRC conducted a comprehensive review of the structure and
the committee’s meeting minutes to ensure compliance with VHA Handbook 1909.01.
The committee’s minute’s format was revised to ensure full compliance and to ensure
that the minutes document EHR quality reviews from all services and quarterly
monitoring reports for the copy and paste function. The use of the new format started
with the meeting on October 29, 2013. Quality Management will review committee
minutes for 90 days to validate compliance and maintain copies of all minutes to ensure
that data and analysis are readily available.

Recommendation 8. We recommended that the facility Director ensure that the blood
usage review process meets applicable requirements and is monitored on an ongoing
basis and that documented evidence of compliance be readily available.

Concur

Target date for completion: December 16, 2013

Facility response: CVVAMC will ensure that blood usage and review process meets
applicable requirements to include the results of proficiency testing, peer reviews, and
external reviews. These elements will be standing agenda items for the Blood Usage
Review Committee Meeting. The Blood Usage Review Committee will meet on
December 5, 2013 and reports quarterly to the MEC. Quality Management will review
minutes to validate compliance and maintain copies of all minutes to ensure that data
and analysis are readily available.

Recommendation 9. We recommended that processes be strengthened to ensure that
representatives from Surgery, Medicine, and Anesthesia Services attend Blood Usage
Committee meetings.

Concur

Target date for completion: December 17, 2013

Facility response: The Blood Usage Committee Chairperson communicated to all
members of the committee of the requirement to attend each meeting. This was
electronically communicated as well by signed memoranda. The quorum for the


VA OIG Office of Healthcare Inspections                                                           26
                                          CAP Review of the Carl Vinson VA Medical Center, Dublin, GA


November 2013 meeting was achieved and members present included representatives
from surgery, medicine, and anesthesia service lines.

Recommendation 10. We recommended that processes be strengthened to ensure
that Medical Executive Committee and Quality Leadership Team minutes reflect
discussion of improvement opportunities and track actions taken to completion for IPEC
data and the copy and paste function.

Concur

Target date for completion: December 17, 2013

Facility response: IPEC data will be discussed at the CPR and Infection Control
Committees. The minutes will include an analysis of the aggregated IPEC data to
include opportunities for improvement and actions taken. The results will be reported
quarterly to the Medical Executive Committee (MEC). The copy and paste function will
be a quarterly monitor for the Medical Records Committee.

Recommendation 11. We recommended that the facility conduct a full evaluation of
QM processes to determine whether improvements are needed to ensure a
comprehensive and effective program that monitors all required components.

Concur

Target date for completion: December 13, 2013.

Facility response: A comprehensive external review of the facility’s Quality
Management program is currently in process.

Recommendation 12. We recommended that processes be strengthened to ensure
that vents in patient care areas are clean and that compliance be monitored.

Concur

Target date for completion: Completed

Facility response: During the survey process, the Engineering Services Leadership
conducted a full inspection of all vents and ensured that they were properly cleaned.
Cleaning of vents in patient care areas was completed on September 20, 2013.

To ensure this cleanliness is maintained, a preventive maintenance schedule has been
developed within VISTA.




VA OIG Office of Healthcare Inspections                                                           27
                                          CAP Review of the Carl Vinson VA Medical Center, Dublin, GA


Recommendation 13. We recommended that processes be strengthened to ensure
that RME standard operating procedures and manufacturers’ instructions are
consistent.

Concur

Target date for completion: Completed

Facility response:     SOPs identified in the review were updated to reflect the
manufacturers’ recommendation on October 23, 2013. SPS staff initiated a review and
compared all facility RME SOPs with manufacturer’s instructions. The full review was
completed on November 27, 2013. The RME committee will be updated monthly on
new and/or updated SOPs and staff competency related to the new and /or updated
SOPs to ensure sustainability/compliance.

Recommendation 14. We recommended that processes be strengthened to ensure
that CS inspectors receive annual updates or refresher training.

Concur

Target date for completion: Completed

Facility response: All Controlled Substance Inspectors (CSI) have completed the TMS
training. The Controlled Substance Coordinator (CSC) has a printed copy of each CSI’s
certificate on file. To maintain competency, all CSI will be assigned annual TMS
training for completion. In addition, the CSC will conduct an annual refresher training
which will include any pertinent updates. Documentation of training will be kept by the
CSC.

Recommendation 15. We recommended that processes be strengthened to ensure
that monthly inspections of all non-pharmacy areas with CS are conducted and include
all required elements and that compliance be monitored.

Concur

Target date for completion: Completed

Facility response: Monthly inspections are scheduled to provide a strict timeframe for
inspection completion. Education has also been provided to inspectors concerning
assigned inspection guidelines, timeframes, and inspector responsibilities if unable to
perform a scheduled inspection. The current SOP outlines these requirements,
timeframes and guidelines. The Control Substance Coordinator sends a monthly report
to the Medical Center Director which will include inspection reports of all required
non-pharmacy areas with CS as well as compliance to required elements. A quarterly
trend report is also submitted to the Medical Center Director which will identify trends
regarding compliance or non-compliance with selected elements. To strengthen the
process and assist with compliance monitoring, the Executive Assistant (EA) to the



VA OIG Office of Healthcare Inspections                                                           28
                                          CAP Review of the Carl Vinson VA Medical Center, Dublin, GA


Director will also receive and review the monthly and quarterly reports prior to
submission to the Medical Center Director.

Recommendation 16. We recommended that processes be strengthened to ensure
that monthly inspections of all pharmacy areas are conducted and include all required
elements and that compliance be monitored.

Concur

Target date for completion: Completed

Facility response: Compliance with the VHA Handbook 1108.2, “Inspection of
Controlled Substances,” was validated in October 2013 by the Controlled Substance
Coordinator. A review of seven consecutive months of inspections resulted in 100%
compliance. Monthly inspections do include inpatient pharmacy, the outpatient
pharmacy, the CLC vault and the emergency drug cache. The Control Substance
Coordinator sends a monthly report to the Medical Center Director which will include
inspection reports of all required pharmacy areas with CS as well as compliance to
required elements. A quarterly trend report is also submitted to the Medical Center
Director which will identify trends regarding compliance or non-compliance with selected
elements. To strengthen the process and assist with compliance monitoring, the
Executive Assistant (EA) to the Director will also receive and review the monthly and
quarterly reports prior to submission to the Medical Center Director.

Recommendation 17. We recommended that processes be strengthened to ensure
that all non-HPC clinical staff who provide care to patients at the end of their lives
receive end-of-life training.

Concur

Target date for completion: December 31, 2013

Facility response: All non-HPC clinical staff that provide care to patients at the end of
their lives are scheduled to attend “End of Life Training.” This training will be provided
throughout the day to capture the various shifts. Follow up training will be scheduled on
an as needed basis for those not able to attend the scheduled training. Training is
scheduled for December 4, 2013 in the medical center auditorium. This training will be
conducted for all appropriate new employees and annually thereafter. Monitoring will be
conducted by the Chief of Social Work who will submit compliance reports to the QLT
every 6 months. The training requirement will be added to each person’s TMS
curriculum.




VA OIG Office of Healthcare Inspections                                                           29
                                          CAP Review of the Carl Vinson VA Medical Center, Dublin, GA


Recommendation 18. We recommended that the facility establish an interprofessional
pressure ulcer committee with appropriate membership, including a certified wound care
specialist.

Concur

Target date for completion: Completed

Facility response: The CVVAMC chartered an interprofessional Pressure Ulcer
Committee on November 22, 2013. A formal policy is currently in development which
will outline the specific functions, expected outcomes, metrics, and reporting structure to
ensure compliance to VHA handbook 1180-02, Prevention of Pressure Ulcers. The first
meeting of the Pressure Ulcer Committee was held November 26, 2013.

Recommendation 19. We recommended that the facility analyze pressure ulcer data
and report it to facility executive leadership.

Concur

Target date for completion: December 31, 2013

Facility response: Data will be tracked, trended, and reported by the Wound Care
Nurse to the Pressure Ulcer Committee on a monthly basis. The data will be presented
to the ELT no less than four times a year beginning with the December 2013 meeting.

Recommendation 20. We recommended that processes be strengthened to ensure
that acute care staff perform and document a complete skin assessment on all patients
within 24 hours of admission and that compliance be monitored.

Concur

Target date for completion: December 31, 2013

Facility response: All patients admitted to acute care unit will have a skin assessment
completed within 24 hours of admission per VHA Handbook 1180-02. Audits for all
acute care units for the month of September and October were conducted. Results
demonstrated 100% compliance with guidelines. Data will be tracked, trended, and
reported by the Wound Care Nurse to the Pressure Ulcer Committee at least quarterly
starting with the December 2013 meeting.

Recommendation 21. We recommended that processes be strengthened to ensure
that acute care staff perform and document a patient skin inspection and risk scale at
discharge and that compliance be monitored.

Concur

Target date for completion: January 28, 2014




VA OIG Office of Healthcare Inspections                                                           30
                                          CAP Review of the Carl Vinson VA Medical Center, Dublin, GA


Facility response: The wound care nurse audits 100% of all patients who are
discharged with pressure ulcers to ensure that patient skin inspections and risk scales
are documented at discharge. The data will be reported monthly to the Pressure Ulcer
Committee.

Recommendation 22. We recommended that processes be strengthened to ensure
that acute care staff accurately document location, stage, risk scale score, and date
pressure ulcer acquired for all patients with pressure ulcers and that compliance be
monitored.

Concur

Target date for completion: January 28, 2014

Facility response: Acute care staff will accurately document location, stage and/or risk
scale score for all pressure ulcer patients and documented evidence of compliance will
be available. To confirm compliance, the Nurse Quality Coordination will conduct
random audits utilizing the ADC of patients meeting criteria. The data will be reported
monthly to the Pressure Ulcer Committee.

Recommendation 23. We recommended that processes be strengthened to ensure
that acute care staff consistently perform and document daily risk scales and daily skin
inspections for patients at risk for or with pressure ulcers and that compliance be
monitored.

Concur

Target date for completion: January 28, 2014

Facility response: Further training is being provided for the nursing staff on acute care
units regarding the assessment and documentation of pressure ulcers. Completed
training will be tracked for 100% nursing staff completion. Post-training monitoring of
pressure ulcer documentation and accuracy will be conducted as part the established
pressure ulcer review. Results will be reported at the Pressure Ulcer Committee and
Nurse Executive Council.

Recommendation 24. We recommended that processes be strengthened to ensure
that acute care staff provide and document pressure ulcer education for patients at risk
for and with pressure ulcers and/or their caregivers and that compliance be monitored.

Concur

Target date for completion: January 28, 2014

Facility response: To ensure that staff are documenting the education provided to
patients at risk for pressure ulcers and their caregivers, the Wound Care Nurse will
reinforce the training on the method of documenting this in the electronic health record.
The Nurse Quality Coordinator or designee will be responsible for auditing, tracking and


VA OIG Office of Healthcare Inspections                                                           31
                                          CAP Review of the Carl Vinson VA Medical Center, Dublin, GA


trending results for compliance with established guidelines. Results will be reported to
the Pressure Ulcer Committee.

Recommendation 25. We recommended that processes be strengthened to ensure
that designated employees receive training on how to administer the pressure ulcer risk
scale, how to conduct a complete skin assessment, and how to accurately document
findings and that compliance be monitored.

Concur

Target date for completion: Completed

Facility response: Training to administer the pressure ulcer risk scale, how to conduct a
complete skin assessment and how to accurately document the findings have been
completed by 100% of the acute care nursing staff. The competency model was
completed via the learning plans in the Talent Management System (TMS).
Compliance will be tracked through delinquency reports that are automatically
generated by TMS and sent to supervisors.                Compliance to documentation
requirements will be recurring reports for the Pressure Ulcer Committee.

Recommendation 26. We recommended that all members of the facility and
unit-based expert panels receive the required training prior to the next annual staffing
plan reassessment.

Concur

Target date for completion: Completed

Facility response: As of November 2013, 43 of the 43 members of the Unit Based
Expert Panel have completed training and 21 of the 21 members of the Facility Expert
Panel have completed the training. The training has been completed and documented
prior to the completion of the next annual staffing plan assessment.

Recommendation 27. We recommended that processes be strengthened to ensure
that IC and tuberculosis risk assessments are conducted and reviewed prior to
construction project initiation.

Concur

Target date for completion: Completed

Facility response: The current ISL audit tool reflects that TB risk is addressed prior to
all new construction projects. To strengthen the program, a revised Safety & Health
During Construction Activities policy (MCM 138-452) has been approved and published
stipulating that all contracted construction employees assigned to the work site will have
a pre-placement negative TB screening completed 90 days prior to working on any
project. The process will continue to be reported during the Construction Safety
Committee.


VA OIG Office of Healthcare Inspections                                                           32
                                          CAP Review of the Carl Vinson VA Medical Center, Dublin, GA


Recommendation 28.         We recommended that all required members of the
multidisciplinary CSC participate in construction site inspections and that inspection
documentation includes the time of the inspection and the names of those who
participated.

Concur

Target date for completion: Completed

Facility response: The Chief of Engineering Services has communicated to all
members of the CSC of the requirement for them to participate in construction site
inspections. CVVAMC’s policy MCM 138-452, “Safety & Health During Construction
Activities” has been revised to include construction site inspection form (including dates,
times and names of participants as well as inspection findings) and when it will be
completed.

Recommendation 29. We recommended that processes be strengthened to ensure
that infection surveillance activities related to construction projects are conducted and
documented in IC minutes.

Concur

Target date for completion: Completed

Facility response: All infection surveillance activities related to construction projects are
now captured in the monthly Infection Control Committee (ICC) minutes.
September 25, 2013, the first ICC meeting, post-survey, deficiencies as they relate to
construction projects were reported and recorded in the minutes. All issues including
identified solutions will be tracked to completion and will be documented in the ICC
Minutes.

Recommendation 30. We recommended that processes be strengthened to ensure
that CSC minutes contain documentation of any unsafe conditions identified in daily
inspections.

Concur

Target date for completion: Completed

Facility response:     CVVAMC’s policy MCM 138-244 (Access/Exposure Control
Program) Appendix C (Daily Construction inspection Report) has been revised to
include a field for “Unsafe Conditions.” MCM 138-452, “Safety & Health During
Construction Activities” was revised to mandate review of unsafe conditions at each
Construction Safety Committee meeting. All stakeholders have been educated of the
latest updates.




VA OIG Office of Healthcare Inspections                                                           33
                                          CAP Review of the Carl Vinson VA Medical Center, Dublin, GA


Recommendation 31. We recommended that processes be strengthened to ensure
that contractors receive OSHA Construction Safety training prior to project initiation.

Concur

Target date for completion: Completed

Facility response:    CVVAMC updated MCM 138-452, “Safety & Health During
Construction Activities” to reflect that all contractors submit proof of successful
completion of required OSHA training before requests for temporary identification
badges are issued. The data will be monitored by the Pre-Construction Committee.

Recommendation 32. We recommended that processes be strengthened to ensure
that designated employees receive initial and ongoing construction safety training and
that compliance be monitored.

Concur

Target date for completion: Completed.

Facility response: Training for all members of the Construction Safety Committee has
been completed. Individual training plans for Construction Safety Committee members
have been updated to include 2 year construction safety refresher training. This training
will be monitored and tracked using Talent Management System (TMS), where the
curriculum has been added to all applicable employee profiles. TMS provides timely
alerts to employees and supervisors.

Recommendation 33. We recommended that processes be strengthened to ensure
that monthly MH RRTP self-inspections are conducted and documented.

Concur

Target date for completion: Completed

Facility response: The self-assessment tool used for monthly inspections in the
Domiciliary includes all required elements as described in VHA Handbook 1162.02,
Mental Health Residential Rehabilitation Treatment Program. Monthly self-inspections
were initiated in May 2013 and have been completed each month since. Compliance
with this requirement will continue to be tracked by the Domiciliary Chief.

Recommendation 34. We recommended that processes be strengthened to ensure
that MH RRTP employees perform and document daily bed checks and weekly
contraband inspections and that compliance be monitored.

Concur

Target date for completion: Completed




VA OIG Office of Healthcare Inspections                                                           34
                                          CAP Review of the Carl Vinson VA Medical Center, Dublin, GA


Facility response: The daily bed checks and weekly contraband audit tool have been
amended to reflect all VHA requirements. The revised audit tool is currently in use.
The Domiciliary Chief will monitor compliance through self-inspections. The Associate
Chief of Mental Health and the Mental Health Business Manager or their designee will
conduct a 100% review of reports for 90 days to ensure compliance.

Recommendation 35. We recommended that processes be strengthened to ensure
that written agreements acknowledging resident responsibility for medication security
are in place.

Concur

Target date for completion: Completed

Facility response: A facility policy is in place to govern requirements for the medication
management program (MCM 00-345). All participants in the MH RRTP are provided
and educated on Attachment #1 (Hand Carried Medication Guidelines) and
Attachment #2 (Acknowledgement of Agreement signature page). To ensure the
continued integrity of the program, all completed and signed Acknowledgement of
Agreement forms are forwarded to Health Administration Service (HAS) to be scanned
into the resident’s EHR. Audits will be conducted by the Domiciliary Chief for all new
admissions each month for 3 months to ensure documents are in the EHR.

Recommendation 36. We recommended that the MH RRTP units’ main points of entry
have keyless entry systems.

Concur

Target date for completion: Completed

Facility response:     All occupied units that require keyless entry have keyless entry
systems installed.

Recommendation 37. We recommended that the facility implement written processes
to address behavioral health and medical emergencies and that MH RRTP employees
are aware of the actions to be taken.

Concur

Target date for completion: Completed

Facility response: Written processes to address behavioral and medical emergencies in
the RRTP are addressed in medical center policies MCM 11-370 (Rapid Response
Team) and Plan 00-273 (Cardiopulmonary Resuscitation Plan) which specifically speak
to medical emergencies and in MCM 00-141 (Veterans Presenting with Mental Health
Emergencies). MH RRTP staff will continue to complete required training (CPR,
competencies, and annual training) which is tracked using Talent Management System
(TMS).


VA OIG Office of Healthcare Inspections                                                           35
                                          CAP Review of the Carl Vinson VA Medical Center, Dublin, GA
                                                                                         Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Joanne Wasko, LCSW, Team Leader
Contributors            Victoria Coates, LICSW, MBA
                        Charles Cook, MHA
                        Sheyla Desir, MSN, RN
                        Lesa Gann, LCSW, RN
                        Toni Woodard, BS
                        Tracy Brumfield, Office of Investigations
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Jeff Joppie, BS
                        Victor Rhee, MHS
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                           36
                                          CAP Review of the Carl Vinson VA Medical Center, Dublin, GA
                                                                                         Appendix F

                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Director, VA Southeast Network (10N7)
Director, Carl Vinson VA Medical Center (557/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Saxby Chambliss, Johnny Isakson
U.S. House of Representatives: John Barrow; Sanford D. Bishop, Jr.; Jack Kingston;
 Austin Scott


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                           37
                                               CAP Review of the Carl Vinson VA Medical Center, Dublin, GA
                                                                                             Appendix G

                                                Endnotes

1
    References used for this topic included:
	 VHA Directive 2009-043, Quality Management System, September 11, 2009.
	 VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.
	 VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.
	 VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.
	 VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation
    Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
    Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
	 VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
    (MDS), January 4, 2013.
2
   References used for this topic included:
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2009-004, Use and Reprocessing of Reusable Medical Equipment (RME) in Veterans Health
    Administration Facilities, February 9, 2009.
	 VHA Directive 2009-026, Location, Selection, Installation, Maintenance, and Testing of Emergency Eyewash and
    Shower Equipment, May 13, 2009.
	 VA National Center for Patient Safety, “Look-Alike Hemodialysis Solutions,” Patient Safety Alert 11-09,
    September 12, 2011.
	 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04,
    January 17, 2013.
	 Various requirements of The Joint Commission, the Centers for Disease Control and Prevention, OSHA, the
    National Fire Protection Association, the American National Standards Institute, the Association for the
    Advancement of Medical Instrumentation, the International Association of Healthcare Central Service Materiel
    Management, and the Association for Professionals in IC and Epidemiology.
3
   References used for this topic included:
	 VHA Handbook 1108.01, Controlled Substances (Pharmacy Stock), November 16, 2010. 
	 VHA Handbook 1108.02, Inspection of Controlled Substances, March 31, 2010.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA, “Clarification of Procedures for Reporting Controlled Substance Medication Loss as Found in VHA
    Handbook 1108.01,” Information Letter 10-2011-004, April 12, 2011.
	 VA Handbook 0730, Security and Law Enforcement, August 11, 2000.
	 VA Handbook 0730/2, Security and Law Enforcement, May 27, 2010.
4
   References used for this topic included:
	 VHA Directive 2008-066, Palliative Care Consult Teams (PCCT), October 23, 2008.
	 VHA Directive 2008-056, VHA Consult Policy, September 16, 2008.
	 VHA Handbook 1004.02, Advanced Care Planning and Management of Advance Directives, July 2, 2009.
	 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
	 VHA Directive 2009-053, Pain Management, October 28, 2009.
	 Under Secretary for Health, “Hospice and Palliative Care are Part of the VA Benefits Package for Enrolled
    Veterans in State Veterans Homes,” Information Letter 10-2012-001, January 13, 2012.




VA OIG Office of Healthcare Inspections                                                                      38
                                               CAP Review of the Carl Vinson VA Medical Center, Dublin, GA



5
    References used for this topic included:
	 VHA Handbook 1180.02, Prevention of Pressure Ulcers, July 1, 2011 (corrected copy).
	 Various requirements of The Joint Commission.
	 Agency for Healthcare Research and Quality Guidelines.
	 National Pressure Ulcer Advisory Panel Guidelines.
	 The New York State Department of Health, et al., Gold STAMP Program Pressure Ulcer Resource Guide,
   November 2012.
6
  The references used for this topic were:
	 VHA Directive 2010-034, Staffing Methodology for VHA Nursing Personnel, July 19, 2010.
	 VHA “Staffing Methodology for Nursing Personnel,” August 30, 2011.
7
  References used for this topic included:
	 VHA Directive 2011-036, Safety and Health During Construction, September 22, 2011.
	 VA Office of Construction and Facilities Management, Master Construction Specifications, Div. 1, “Special
   Sections,” Div. 01 00 00, “General Requirements,” Sec. 1.5, “Fire Safety.”
	 Various Centers for Disease Control and Prevention recommendations and guidelines, Joint Commission
   standards, and OSHA regulations.
8
  References used for this topic included:
	 VHA Handbook 1162.02, Mental Health Residential Rehabilitation Treatment Program (MH RRTP),
   December 22, 2010.
	 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
	 Requirements of the VHA Center for Engineering and Occupational Safety and Health and National Fire
   Protection Association.




VA OIG Office of Healthcare Inspections                                                                        39
